<html>
<title> - THE REPORT OF THE IRAQ STUDY GROUP</title>
<body><pre>[Senate Hearing 109-920]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-920
 
                   THE REPORT OF THE IRAQ STUDY GROUP

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 7, 2006

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
33-184 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                   The Report of the Iraq Study Group

                            december 7, 2006

                                                                   Page

Baker, Hon. James A., III, Co-Chair, Iraq Study Group............     3
Hamilton, Hon. Lee, Co-Chair, Iraq Study Group...................     3

                                 (iii)


                   THE REPORT OF THE IRAQ STUDY GROUP

                              ----------                              


                       THURSDAY, DECEMBER 7, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:41 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Sessions, Collins, Chambliss, Graham, Cornyn, Thune, Levin, 
Byrd, Lieberman, Reed, Bill Nelson, E. Benjamin Nelson, Dayton, 
Bayh, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Gregory T. 
Kiley, professional staff member; Sandra E. Luff, professional 
staff member; Derek J. Maurer, professional staff member; 
Elaine A. McCusker, professional staff member; David M. 
Morriss, counsel; Lynn F. Rusten, professional staff member; 
Sean G. Stackley, professional staff member; Scott W. Stucky, 
general counsel; and Diana G. Tabler, professional staff 
member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Richard W. Fieldhouse, professional staff member; Gerald J. 
Leeling, minority counsel; Peter K. Levine, minority counsel; 
and William G.P. Monahan, minority counsel.
    Staff assistants present: David G. Collins, Micah H. 
Harris, Jessica L. Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Libby Burgess, assistant to Senator Roberts; 
Arch Galloway II, assistant to Senator Sessions; Matthew R. 
Rimkunas, assistant to Senator Graham; Russell J. Thomasson, 
assistant to Senator Cornyn; Bob Taylor, assistant to Senator 
Thune; Terrence E. Sauvain, assistant to Senator Byrd; 
Elizabeth King, assistant to Senator Reed; Matthew Benham, 
assistant to Senator Bill Nelson; and Luke Ballman, assistant 
to Senator Dayton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee is 
very privileged to have before us this morning Secretary Baker 
and Congressman Hamilton, two colleagues well known and admired 
I think by every person on this committee. We commend you for 
the work that you have done. This committee in the course of 
its deliberations on these issues, I assure you, will take into 
consideration very carefully the work and ability that you 
applied to reach consensus between five Democrats, five 
Republicans, and the fact that you had made available the 
opportunity for all types of people--private sector, public 
sector, people from abroad--to come and provide your study 
group with testimony.
    I believe that I have watched you carefully, as others 
have, in appearances, and in your appearance yesterday before 
our Senate leadership joint session you indicated that every 
issue about this complex situation that is known to mankind was 
considered by your group.
    Now, could you advise us with regard to your time 
constraints? There was some communication to Senator Levin and 
myself. Could you give us that estimate?
    Mr. Baker. We're scheduled, Senator Warner, to leave the 
Capitol at 11 o'clock if we can.
    Chairman Warner. We'll try our best to accommodate that 
schedule, we'll start out with say a 3-minute question round, 
so that hopefully all members can fit within that time 
constraint. We have a vote that will be superimposed on that, 
but the hearing will continue during the vote, and as members 
come and go just in an orderly way we'll ask our questions.
    So, I once again thank you gentlemen and all members of 
your committee. I wish to also acknowledge my long-time friend 
and colleague, Frank Wolf, who came to me with this concept 2 
years ago. We worked together on it, in concert with the United 
States Institute for Peace. I would hope that in your opening 
remarks you would comment on the value of that organization as 
it's helped you in this work. I want to thank Frank and others, 
because you're more or less a creation of the Congress of the 
United States. The idea came to fruition. You then, Mr. Baker, 
met with the President and he indicated his concurrence in 
going forward, and here we are, and you have your report.
    So with that, I turn to Senator Levin for such remarks as 
you have.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, I join you first in thanking 
the co-chairs of the Iraq Study Group. We thank the other 
members of that study group. We thank their staff for a really 
very comprehensive, important report.
    Yesterday was surely an extraordinary day in the history of 
the Iraq war. A day which signaled the end of the 
administration's ``stay the course'' policy and the beginning 
of the development of a new, realistic, bipartisan, and 
hopefully successful approach. First, Robert Gates was 
confirmed. Dr. Gates brought to this committee and the country 
a realistic view of the situation in Iraq, that after 3\1/2\ 
years we're not winning and that the only way to end the 
violence is for the Iraqis to reach a political settlement.
    Yesterday, the Baker-Hamilton Study Group issued a powerful 
comprehensive plan for change in course, including calling for 
an end to the open-ended commitment of American troops as a way 
of pressing the Iraqis to take responsibility for their own 
future. Like Dr. Gates, the Baker-Hamilton report concludes 
that the violence cannot be stopped or even contained, ``if 
there is no underlying political agreement among Iraqis about 
the future of their country.''
    The report calls for U.S. combat brigades to move out of 
Iraq and says further that, ``By the first quarter of 2008, 
subject to unexpected developments in the security situation on 
the ground, all combat brigades not necessary for force 
protection could be out of Iraq.''
    A principal reason for the Iraq Study Group, that they 
called for these reductions, is as follows: ``An open-ended 
commitment of American forces would not provide the Iraqi 
government the incentive it needs to take the political actions 
that give Iraq the best chance of quelling sectarian 
violence.'' In the absence of such an incentive, the report 
says, the Iraqi government might continue to delay taking those 
difficult actions.
    As I told President Bush yesterday at the White House, his 
statement a few weeks ago that, ``We are going to stay in Iraq 
as long as the Iraqis ask us to be there,'' creates the exact 
opposite impression. It maintains an open-ended commitment and 
removes the pressure from the Iraqis to take responsibility for 
their future.
    I hope the administration will accept the recommendations 
in this report and will determine to change course as the best 
hope of turning around this ``grave and deteriorating 
situation'' in the words of the report.
    Once again, I commend Secretary Baker, Congressman 
Hamilton, their colleagues, and their staff for an 
extraordinary bipartisan effort.
    Chairman Warner. Thank you, Senator Levin.
    Gentlemen, we'll now receive your opening statements.

  STATEMENT OF HON. JAMES A. BAKER III, CO-CHAIR, IRAQ STUDY 
                             GROUP

    Mr. Baker. Senator Warner, if it's okay with the committee, 
I have an opening statement. I think my co-chairman, 
Congressman Hamilton does. We would submit those for the record 
and go to your questions if that would be acceptable.
    Chairman Warner. That's fine.
    Mr. Baker. I think we should say, and Lee will probably 
have something to add to this, that we note your appreciative 
statements about Congressman Frank Wolf. Lee made the same 
remarks yesterday at our press conference, and many other 
people, Senator Warner, helped us in the preparation of this 
report and in the preparation for writing this report, 
including the administration, who was very supportive in 
providing documents and personnel, and travel and access to 
people, and things that we needed in order to do our job.

   STATEMENT OF HON. LEE HAMILTON, CO-CHAIR, IRAQ STUDY GROUP

    Mr. Hamilton. Senator Warner, we are mindful of the fact 
that at the creation of the Iraq Study Group you were there, 
you were helpful to us. We deeply appreciate that, as indeed 
were other members of the Senate and the House. You're quite 
right to acknowledge the initiative taken by Congressman Frank 
Wolf, without whose initiative there would be no Iraq Study 
Group. You're right, of course, to recognize the important role 
that the United States Institute of Peace played. They gave us 
marvelous logistical support, expert support, all along the 
way, along with the Baker Institute, the Center for Strategic 
and International Studies, and the Center for the Study of the 
Presidency. They were all very helpful to us. As Jim has 
indicated, we had very strong support from the administration. 
We saw the people we wanted to see. They facilitated our travel 
and they made the documents available we needed.
    The only thing I would say about the statement that I have 
submitted that we did not comment really very much in our 
public presentation yesterday is that we really spend a good 
bit of time on the whole question of resetting the American 
military. We consider that enormously important and I know this 
committee will likewise. We make some recommendations here 
about how to restore the U.S. military. I know this committee 
is very well-informed on that matter. We want to try to 
reinforce what you will do with your leadership.
    [The joint prepared statement of Messrs. Baker and Hamilton 
follows:]
   Joint Prepared Statement by James A. Baker III and Lee H. Hamilton
    Chairman Warner, Senator Levin, distinguished members of the 
Committee on Armed Services. It is a distinct honor to appear before 
you this morning, and to have the opportunity to discuss the 
recommendations of the Iraq Study Group report.
    We want to begin by thanking Chairman Warner for his strong support 
from the outset of the work of the Iraq Study Group. We also thank 
Chairman Warner and Senator Levin for taking the time to meet with the 
Study Group. Our work is better informed because of the wise counsel 
you gave.

                         the situation in iraq

    The situation in Iraq today is grave and deteriorating. Violence is 
increasing in scope and lethality. Attacks on U.S. forces--and U.S. 
casualties--continue at an alarming rate.
    The Iraqi people are suffering great hardship. The democratically 
elected government that replaced Saddam Hussein is not adequately 
advancing the key issues: national reconciliation, providing basic 
security, or delivering essential services. Economic development is 
hampered. The current approach is not working, and the ability of the 
United States to influence events is diminishing.
    The United States has committed staggering resources. Our country 
has lost 2,900 Americans. 21,000 more have been wounded. The United 
States has spent $400 billion in Iraq. Costs could rise well over $1 
trillion.
    Many Americans are understandably dissatisfied. Our ship of state 
has hit rough waters. It must now chart a new way forward.

                           a new way forward

    No course of action in Iraq is guaranteed to stop a slide toward 
chaos. Yet not all options have been exhausted.
    We agree with the goal of U.S. policy in Iraq, as stated by 
President Bush: ``an Iraq that can govern itself, sustain itself, and 
defend itself.''
    We recommend a new approach to pursue that goal. We recommend a 
responsible transition. Our three most important recommendations are 
equally important and reenforce one another:

         a change in the primary mission of U.S. forces in Iraq, that 
        will enable the United States to begin to move its combat 
        forces out of Iraq responsibly;
         prompt action by the Iraqi government to achieve milestones--
        particularly on national reconciliation; and
         new and enhanced diplomatic and political efforts in Iraq and 
        the region.

                              u.s. forces

    The United States must encourage Iraqis to take responsibility for 
their own destiny. This responsible transition can allow for a 
reduction in the U.S. presence in Iraq over time.
    The primary mission of U.S. forces in Iraq should evolve to one of 
supporting the Iraqi Army, which would take over primary responsibility 
for combat operations. As this transition proceeds, the United States 
should increase the number of troops imbedded in and supporting the 
Iraqi Army, and U.S. combat forces could begin to move out of Iraq.
    By the first quarter of 2008--subjected to unexpected developments 
on the ground--all U.S. combat brigades not necessary for force 
protection could be out of Iraq. U.S. combat forces in Iraq could be 
deployed only in units embedded with Iraqi forces, in rapid reaction 
and special operations teams, and in training, equipping, advising, and 
force protection. A key mission for rapid-reaction and special 
operations forces that remain would be to target al Qaeda.
    It is clear that the Iraqi government will need assistance from the 
United States for some time to come. Yet the United States must make it 
clear to the Iraqi government that we could carry out our plans--
including planned redeployments--even if the Iraqi government did not 
implement their planned changes.
    The United States must not make an open-ended commitment to keep 
large numbers of troops deployed in Iraq.

                      restoring the u.s. military

    We also make several recommendations to restore the U.S. military:

         The new Secretary of Defense should make every effort to 
        build healthy civil-military relations, by creating an 
        environment in which the senior military feel free to offer 
        independent advice not only to the civilian leadership in the 
        Pentagon but also to the President and the National Security 
        Council, as envisioned in the Goldwater-Nichols legislation.
         As redeployment proceeds, the Pentagon leadership should 
        emphasize training and education programs for the force that 
        have returned to the continental United States in order to 
        ``reset'' the force and restore the U.S. military to a high 
        level of readiness for global contingencies.
         As equipment returns to the United States, Congress should 
        appropriate sufficient funds to restore the equipment to full 
        functionality over the next 5 years.
         The administration, in full consultation with the relevant 
        committees of Congress, should assess the full future budgetary 
        impact of the war in Iraq and its potential impact on the 
        future readiness of the force, the ability to recruit and 
        retain high-quality personnel, needed investments in 
        procurement and in research and development, and the budgets of 
        other U.S. Government agencies involved in the stability and 
        reconstruction effort.

                               milestones

    A military solution alone will not end the violence in Iraq--we 
must help the Iraqis help themselves.
    President Bush and his national security team should convey a clear 
message to Iraqi leaders: the United States will support them if they 
take action to make substantial progress toward the achievement of 
milestones on national reconciliation, security, and improving the 
daily lives of Iraqis.
    If the Iraqi government does not make substantial progress toward 
the achievement of milestones, the United States should reduce its 
political, military, or economic support for the Iraqi government.

                               diplomacy

    There is no magic formula to solve the problems of Iraq. But to 
give the Iraqi government a chance to succeed, U.S. policy must be 
focused more broadly than on military strategy alone or Iraq alone. It 
must seek the active and constructive engagement of all governments 
that have an interest in avoiding chaos in Iraq, including all of 
Iraq's neighbors.
    To gain this constructive engagement, the United States should 
promptly initiate a New Diplomatic Offensive and, working with the 
government of Iraq, create an International Iraq Support Group to 
address comprehensively the political, economic, and military matters 
necessary to provide stability in Iraq. That support group should 
include Iraq, of course, and all of Iraq's neighbors, including Iran 
and Syria, as well as Egypt, the U.N. Security Council Perm 5 member 
countries, a representative of the U.N. Secretary General, and the 
European Union.
    Given the central importance of the Arab-Israeli conflict to many 
countries both in and out of the region, the United States must again 
initiate active negotiations to achieve a stable Arab-Israeli peace on 
all fronts in the manner we outline in the Report.
    Altogether in this Report, we make 79 recommendations. In addition 
to Military, Political, and Diplomatic recommendations, which are 
equally important and reinforce each other, they cover a range of other 
areas: criminal justice, oil, reconstruction, the U.S. budget process, 
the training of U.S. Government personnel, and U.S. intelligence. These 
recommendations are important, and will greatly increase our ability to 
achieve a responsible transition in Iraq.
    We agreed upon our recommendations after considering a full range 
of other approaches.
    We have not recommended a ``stay the course'' solution. In our 
opinion, that approach is no longer viable. While we do recommend a 
five-fold increase in U.S. forces training Iraqi troops, we do not 
recommend increasing U.S. forces by in excess of 100,000 as some have 
suggested. Additional fully combat-ready U.S. forces of that magnitude 
are simply not available. We have not recommended a division of Iraq 
into three autonomous regions based on ethnic or sectarian identities, 
but with a weak central government. As a practical matter, such a 
devolution could not be managed on an orderly basis; and because Iraq's 
major cities are peopled by a mixture of warring groups, a disorderly 
devolution would likely result in a humanitarian disaster or civil war. 
We also did not recommend a precipitate withdrawal of troops--because 
that might not only cause a bloodbath. It would also invite a wider 
regional war.
    The approach we recommend has shortcomings. We recognize that 
implementing it will require a tremendous amount of political will and 
unity of effort by government agencies. It will require cooperation by 
the executive and legislative branches of government.
    Events in Iraq may overtake what we recommend. For that reason, we 
believe that decisions must be made by our national leaders with 
urgency.
    As it is now, people are being killed day after day--Iraqis and the 
brave American troops who are trying to help them. Struggling in a 
world of fear, Iraqis dare not dream. They have been liberated from the 
nightmare of a tyrannical order, only to face the nightmare of brutal 
violence.
    As a matter of humanitarian concern, as a matter of national 
interest, and as a matter of practical necessity, it is time to find a 
new way forward--a new approach.
    We believe that a constructive solution requires that a new 
political consensus be built--a new consensus here at home, and a new 
consensus abroad. In that spirit, we have approached our Study Group's 
task on a bipartisan basis. So we are especially pleased to note that 
our group offers and supports each and every one of our recommendations 
unanimously.
    We, of course, recognize that some people will differ with some of 
our recommendations. We nevertheless hope very much that, in moving 
forward, others will wish to continue to broaden and deepen the 
bipartisan spirit that has helped us come together.
    We would be pleased to respond to your questions.

    Chairman Warner. Thank you very much. Thank you.
    I will proceed now with 2 or 3 minutes. First, Congressman 
Hamilton, I've watched a number of the appearances and listened 
to you yesterday. You made two strong points yesterday to the 
joint leadership, and the chairmen and ranking members of 
several of our committees: one, the need for a bipartisan 
approach to unify as best we can Congress and the executive 
branch behind such future policies as the President may 
determine. Would you comment on that and once again establish 
how you feel that that is a very essential element to any 
success?
    Mr. Hamilton. I thank the Senator for his question. We are 
indeed impressed with the necessity of having a unity of effort 
in dealing with an extremely difficult foreign policy 
challenge. To the extent that the country is split, to the 
extent that the country is divided on how to deal with Iraq, we 
greatly weaken our ability to deal with the problem.
    I'm impressed, as I'm sure you have been, with how much of 
the political debate seems to be people kind of talking passing 
in the night, as it were, and not really connecting with a 
genuine substantive policy debate. Bipartisanship is absolutely 
essential. What we tried very hard to do in this report, and I 
don't know that we've succeeded entirely, is to put together 
realizable recommendations. Given the political environment in 
Washington, given the political environment in Iraq, what can 
be done in both of these governments to put together an 
effective policy? That's a very tough policy problem and we 
tried to say that in order for this to happen it can't be pie 
in the sky, it can't be idealistic; it has to be very pragmatic 
as to the recommendations, and so we hope they are achievable 
recommendations.
    The fact of the matter is you have President Bush in office 
for 2 more years. The fact of the matter is that the report 
that we put before you must largely be implemented by the 
executive branch. You cannot dodge that fact. It is a fact of 
political life, and Congress will play an important role, 
should play an important role, but Congress cannot implement 
the decisions in this report for the most part. There are some 
legislative matters to be addressed.
    So we feel the approach of bipartisanship and unity of 
effort is absolutely critical to the success of our policy.
    Chairman Warner. I thank you for that. To take off on your 
question on Congress, Congress having really been the impetus 
that established this group, the President will now look at the 
options that his internal National Security Council provides 
for him, certain other perspectives that the Chairman of the 
Joint Chiefs will give, and then he has to synthesize this and 
make these decisions.
    I've recommended that somehow Congress reinvolve itself, 
obviously not the whole Congress, but the leadership of 
Congress. I would hope that the President would consult with 
them before he finally promulgates to the public and to the 
world his views.
    Do you think that would be a wise idea?
    Mr. Hamilton. I certainly do, and I think Congress is quite 
capable of doing that. I do have some questions about your word 
``synthesize.'' I think it's terribly important that we 
understand that you cannot solve the Iraqi problem in pieces, 
and so you have to approach it comprehensively. If you think 
you can solve the problem of Iraq by manipulating the troop 
levels, I think you have it dead wrong. If you think you can 
solve the problem by economic reconstruction or political 
action, I think that's wrong, too.
    What has to be done is that all of the tools of American 
power have to be integrated carefully here--political, 
economic, military for sure--and to use those effectively. What 
you have to have is a comprehensive approach.
    Chairman Warner. Excuse me. My time is running out. I think 
I concur generally with that. I used the word deliberately 
because the President must take into consideration the 
perspectives from the Chairman of the Joint Chiefs. That's what 
I meant.
    Mr. Hamilton. That's correct.
    Chairman Warner. But you concur generally that Congress 
would be helpful to look at it once before, likely through the 
leadership, whatever private meetings can be arranged, before 
it goes out, Secretary Baker?
    Mr. Baker. Yes, I do, Senator. But let me reinforce what 
Mr. Hamilton has just said on two points. Bipartisanship is 
critical. This is an extraordinarily difficult problem and 
unless Congress comes together behind a unified approach, we're 
going to have a tough time dealing with it.
    Second, I hope we don't treat this like a fruit salad and 
say, ``I like this but I don't like that, I like this but I 
don't like that.'' This is a comprehensive strategy designed to 
deal with this problem we're facing in Iraq, but also designed 
to deal with other problems that we face in the region, and to 
restore America's standing and credibility in that part of the 
world.
    So that's why we say in here that it's important. These are 
interdependent recommendations we make, and we hope that when 
people look at them and start thinking about implementing them 
they'll think about implementing all of them and certainly at 
least as many as they can.
    Chairman Warner. I thank the witnesses. I just simply close 
with this observation: But the President under the Constitution 
has the responsibility and he has a great deal of valuable 
input coming before him.
    Mr. Baker. That is correct.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you.
    I agree with both of your comments about the need for a 
comprehensive approach. Secretary Baker, I heard you yesterday 
say on some radio program that the ``stay the course'' solution 
is no longer viable. Would you tell us why you believe that?
    Mr. Baker. We took a look at this over a period of 9 
months, Senator, and the principal recommendations in here are 
that we change the primary mission of U.S. forces, that we have 
a new diplomatic offensive that is very extensive and 
comprehensive, and that we work with the Iraqi government to 
create performance milestones which we expect them to live up 
to.
    We condition most of our security assistance and economic 
assistance when we give it to other countries. There's nothing 
unreasonable, we don't think, about having some reasonable 
conditionality here, particularly when you're talking about 
milestones worked out by the United States in consultation with 
the government of Iraq.
    Senator Levin. Thank you. Your report says that American 
military forces cannot stop the violence or even contain it if 
there is no underlying political agreement among Iraqis about 
the future of their country. Then you go on to say that an 
open-ended commitment of American forces would not provide the 
Iraqi government the incentive that it needs to take the 
political actions that give Iraq the best chance of quelling 
sectarian violence. In the absence of such an incentive, the 
Iraqi government might continue to delay taking those difficult 
actions.
    I'm wondering if perhaps you or Congressman Hamilton could 
give us your thinking behind that conclusion, which is a very, 
very significant one and one which many of us have been 
preaching here for a long time?
    Mr. Hamilton. One of the things we kept asking ourselves 
repeatedly through our discussions was what kind of leverage 
you could assert on the Iraqi government. The Iraqi government 
has not performed well. It's a weak government. If you look at 
the ministries of the Iraqi government, not a single one of 
those ministries are what you would call really effective, some 
better than others.
    Now, our approach to this point has been one of giving 
assistance without conditionality, providing the troops without 
any reservation of any kind. If you look at this from the 
standpoint of the Iraqi government, that's a pretty good deal. 
We're supplying them a lot of money and a lot of troops. We're 
doing a lot of fighting. We're taking a lot of bloodshed. We're 
pouring huge resources into there, and why wouldn't they be 
satisfied with that? Why wouldn't they criticize our report, as 
they did yesterday?
    But the fact of the matter is this government has not taken 
the tough steps it needs to take, the Iraqi government, on the 
three key issues of national security, on the security 
question, national reconciliation, and providing just the basic 
services of any governing power--electricity and water and all 
the rest of it.
    Now, how do you get them to do it? What kind of leverage do 
you have? We believe that the troop level question is one point 
of leverage, and we have to say to those folks that we're just 
not going to be there indefinitely. There are limits to 
American patience, there are limits to American resources, and 
you have to get moving and get your act together. Among the 
things you have to do--and you mentioned this--is to deal with 
the political problem.
    Again and again the comment from the experts is that you 
cannot solve this problem by military power alone. Military 
power is important, but fundamentally you have to deal with the 
underlying political problems of that country. Now, there's no 
mystery as to what has to be done. What has to be done is that 
the various elements of that country have to be given a fair 
deal, a fair shake, in the political structure of the country.
    If you're going to ignore 20 percent of the people in the 
country, the Sunnis who have traditionally ruled the country, 
they're going to be pretty upset about it and they're going to 
fight and they're going to bring violence to the table, and 
they feel they're being shut out of the game, and that's one of 
the principal driving forces behind the sectarian violence that 
is now taking place.
    So the idea here is leverage through aid, leverage through 
troop levels, letting the Iraqis know firmly that they have to 
move and make substantial progress in a whole variety of 
areas--we spell it all out in the report--and that that has to 
be done promptly. That brings up the question of time frame. I 
see people talking about very elongated time frames. I don't 
think you have that kind of time frame here. You're dealing 
with time frames of weeks and maybe days.
    Throughout our consideration of this report, we were 
constantly aware that events could overtake us. Maybe they 
have, I don't know, and tomorrow morning maybe they will. But 
you are where you are. You have to deal with the circumstances 
that you have. We've put forward a plan that we think has a 
reasonable chance of success in that region if it is well 
carried out.
    Chairman Warner. Thank you.
    Mr. Baker. At the same time, Senator Levin, I think it's 
fair to say, and I know Lee would agree with this, that our 
panel, our Study Group, understands the difference between 
political will to take the actions that we want the Iraqi 
government to take, and ability to take those actions. So if 
you will look at the report carefully, you will see that what 
we say is that if they do not make substantial progress toward 
the completion of these milestones, or toward meeting these 
milestones, the United States should reduce its political, 
economic, or military support. It's phrased dysjunctively 
because there could be, and probably will be, occasions where 
they might try in good faith to meet a milestone they've agreed 
to with us but not be able to, simply as a matter of capacity.
    So I want to call the committee's attention to that 
particular provision. Thank you.
    Chairman Warner. Thank you.
    I wish to advise the committee that the vote will be at 
10:45. Consequently, I'm certain that we can conclude our 
committee meeting and give every member present the opportunity 
to question our witnesses.
    Senator McCain.
    Senator McCain. I want to thank the panel and especially 
our two leaders for the outstanding work and effort they've 
made to try to help us through this difficult dilemma which we 
face, and I very much appreciate not only their present, but 
past service to the country.
    I do believe that General Jack Kean, who was I believe on 
your panel of military advisers, said, ``Based on where we are 
now, we can't get there,'' adding that the report's conclusions 
say more about, ``the absence of political will in Washington 
than the harsh realities in Iraq.''
    I agree with him, particularly in light of your conclusions 
on page 73, which say: ``Because of the importance of Iraq to 
our national security goals and our ongoing fight against al 
Qaeda, we considered proposals to make substantial increases in 
the number of U.S. troops in Iraq. We rejected this course 
because we do not believe that the needed levels are available 
for a sustained deployment.''
    My studies and figures show that they are available for 
sustained deployment, at least in order to get the situation 
under control, number one.
    I want to tell you something that I know that you know. 
There's only one thing worse than an overstressed Army and 
Marine Corps, and that's a defeated Army and Marine Corps. We 
saw that in 1973. I believe that this is a recipe that will 
lead to sooner or later our defeat in Iraq. I don't believe 
that a peace conference with people who are dedicated to your 
extinction has much short-term gain. I do not believe that a 
regional conference with Iran and Syria, who obviously have at 
least very difficult short-term goals than the United States of 
America, including a 1,000-year-old ambition on the part of the 
Persians to exert hegemony in the area, are probably, at least 
in the short term, going to lead to a viable solution or one 
that we would agree on.
    But most of all, this issue of saying that we don't support 
increased number of troops because we've always known now that 
there was not enough troops there. That is the overall 
consensus of opinion. To say that we don't have enough troops, 
but we'll threaten to have less unless you somehow react in a 
way that we want you to, is a degree of impracticality. To 
withdraw the troops and then still have thousands of American 
soldiers embedded in Iraqi units that are of questionable value 
or loyalty, I think, puts at risk a large number of American 
military advisers.
    I'd like to hear your response to that, but I do also want 
to thank you again, with the greatest respect, for the hard 
work that you and the other members of the commission did.
    Mr. Baker. Thank you, Senator. Let me say one or two 
things, and I know Lee will have some comments as well.
    First of all with respect to the augmentation of forces, we 
call for a fivefold increase in the U.S. combat forces 
dedicated to the training and equipping mission. We do point 
out that those forces could be--it's up to the commander in 
chief, of course--available perhaps in region without bringing 
them in from the United States. Or they might be brought in 
from the United States.
    We did receive commentary from people to the effect, 
generally, that we do not have readily available combat forces 
up to the level of 100,000, that if that were the policy 
approach that was suggested, that would be available to go in 
there for at least quite some time.
    We're not suggesting a regional conference, Senator McCain, 
as a solution or a panacea to this. It is really only part of a 
comprehensive strategy. General Kean's comments we noted today 
as well, and what I think he really was saying, at least the 
way I read them, was that the training and equipping mission 
would not succeed, and that's his opinion. We received opinions 
to the contrary, but whether he's right or whether the others 
are right, we think it's worth a try, particularly if we're 
going to enhance the number and the capability of our trainers, 
as is also called for in this document.
    Mr. Hamilton. Senator McCain, that relates to the risk with 
embedded American forces with Iraqi forces. You're absolutely 
right about that, there are risks there. If you put American 
forces right in the middle of this sectarian violence working 
with Iraqi forces, those young men and perhaps young women too 
are in a place of danger.
    Now, we tried to deal with that by saying that we're going 
to do everything we can by way of force protection. We will 
have combat forces there to protect the embedded forces. We're 
going to have all kinds of logistics and supply efforts to help 
them. But there is no blinking the fact that that's a risky 
mission and a different mission and we should not slide over 
it, as you have not in your comments.
    The comment the general made about we can't get there is a 
deeply pessimistic comment, not without some basis. We 
appreciate the fact that the training of Iraqi forces did not 
go very well for the first 2 years. We do believe that we've 
learned and, through trial and error, that our efforts over the 
past year have been much better, and we believe that an 
intensive effort over the next 18 months can make a difference 
in this military training. We don't underestimate that task at 
all.
    It is certainly the case that the Iraqi units perform 
better when the U.S. trainers are present, and if we accelerate 
that effort we believe we can make a difference in getting 
where we want to go. So this is a very, very important part of 
the security arrangements in that country. Incidentally, this 
embedding idea is strongly supported by the Iraqi government 
itself. It obviously doesn't agree with all of our report, but 
it does agree with this part of it.
    Are we convinced that this is going to work? We just 
believe it's the best plan possible under the circumstances, 
and obviously everything we do to protect the forces that are 
engaged in whatever capacity just has to be done.
    Chairman Warner. Thank you, Senator.
    Mr. Baker. Senator McCain, may I just add to what Lee has 
said? We're not only increasing fivefold the combat forces 
dedicated to training and calling for the best U.S. combat 
personnel to be engaged in this; we're also suggesting that 
they be inserted all the way down to the company level. We had 
a lot of very difficult discussions about this issue you raise 
about forces to be left there to protect our trainers and our 
embedded U.S. forces with the Iraqi forces. It was the subject 
of some dispute and debate. I think we have come up with 
language on page 72 of the document, Senator, that will enable 
us to maintain sufficient combat forces there in a robust 
deployment that we will be able to protect our trainers. I 
discussed this indirectly with General Pace, and I think he 
agrees with that.
    Senator McCain. I thank you, Mr. Chairman. I just would 
like to say it should alarm us--and it's out of the scope of 
your study--that with 300 million people in America and the 
responsibilities we have throughout the world that we don't 
have enough troops to surge in Iraq, which was your conclusion. 
I do not believe it would require 100,000, but I won't waste 
the time of the committee. But I think there's a disconnect 
between what you're recommending and the situation on the 
ground. I very much appreciate all your work.
    Chairman Warner. Thank you, Senator McCain.
    I hope in the course of your dialogue here today you can 
touch once again on the involvement or noninvolvement of our 
troops in combat relating to sectarian violence. Speaking for 
myself, I think they should not be put in positions where if 
Iraqi troops decide to get involved directly in trying to fight 
against the Sunni, or fight against the Shia, because of this 
senseless, wanton killing for religious reasons, I do not think 
they're there for that purpose.
    Mr. Baker. Senator Warner, just one more thing with 
reference to Senator McCain's very, very valid point. We also 
call, Senator, for support of a short-term surge of forces for 
the mission in Baghdad if U.S. commanders should suggest it.
    Chairman Warner. Thank you.
    Senator Byrd.
    Senator Byrd. Time does not permit me to adequately express 
my respect for both of you gentlemen, and my thanks for the 
work you have done for our country and that you are doing.
    The theme of your report seems to be that the United States 
should be moving quickly to find an end to our involvement in 
Iraq and allow Iraqis to take control of their future. You 
emphasize that the U.S. involvement in Iraq cannot be 
permanent, and I agree. Meanwhile, the 2002 Iraqi war 
resolution is outdated and does not take into account the 
current situation.
    In June, I introduced an amendment in the Senate with 
Senator Snowe that would provide an exit strategy for Iraq that 
is not based upon dates. The amendment would have sunset the 
war resolution based on conditions such as Iraq taking control 
of security, other countries relieving U.S. troops of their 
mission to support the Iraqi Security Forces, the President 
declaring the mission in Iraq to be complete, and so on and so 
on. In short, this amendment would have put an exit strategy in 
law, signaled the finite commitment of the United States to 
Iraq, and set forth a path for U.S. troops to come home, while 
avoiding the mistake of Congress's trying to micromanage 
military decisions.
    Secretary Baker and Congressman Hamilton, is it not time 
for Congress to take a fresh look at the outdated use of force 
resolution that was passed in 2002 without my vote? Isn't it 
time?
    Mr. Hamilton. Senator, we really did not express a view on 
that. One of the rules we followed pretty closely throughout 
the consideration of our work was not to look backwards, and we 
did not look at the resolution that you refer to. I really 
don't have a judgment with regard to its adequacy for the 
present situation.
    I saw the piece in the post by my friend Michael Lennon 
today, but we did not make a judgment about that. We operated 
with a very strict rule that we would not try to evaluate the 
past. Our mandate was to look forward. We are where we are. 
What do we do from this point on was the question we addressed, 
and we really do not have a judgment about this resolution.
    Senator Byrd. Secretary Baker?
    Mr. Baker. I would agree with that, Senator Byrd. I haven't 
studied it and we did not study it as a part of our report 
because it was a past tense action.
    Senator Byrd. I think you're exactly right and were exactly 
right, but I ask the question again: Isn't it time--maybe you 
can help us a little on this--for Congress itself, us, to take 
a fresh look at the outdated use of force resolution that was 
passed in 2002? Would you venture a response? Do you think it's 
time?
    Mr. Hamilton. Senator, I think if such a resolution were in 
the form and supported strongly, which would reinforce the role 
of Congress in the very grave question of sending young men and 
women into harm's way, and would contribute to a unified effort 
and more bipartisan support, such a resolution could play a 
very, very important role in terms of strengthening American 
foreign policy in the region.
    Senator Byrd. That's a very helpful response.
    Chairman Warner. Thank you, Mr. Byrd.
    Senator Byrd. Might I just elicit a response from Secretary 
Baker?
    Chairman Warner. Yes.
    Mr. Baker. I wouldn't disagree with my co-chairman. He's 
the legislative expert, Senator. I'm an executive branch 
expert, or maybe not an expert, but all of my experience has 
been in the executive branch. So if the distinguished gentleman 
on my left says that as a legislative matter it would be 
appropriate, I'll go along with that.
    Chairman Warner. Thank you very much.
    Senator Byrd. Good answer. Thank you both.
    Mr. Baker. Reluctantly. Reluctantly, Senator, reluctantly. 
[Laughter.]
    Chairman Warner. I raised a similar question to that about 
6 months ago in the context of one of these hearings.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, I can't think of any two people better 
equipped to handle this thing than the two who are doing it. I 
still work with Secretary Baker on a regular basis, and of 
course I've worked under Mr. Hamilton on the House Armed 
Services Committee. So I just appreciate the fact that the 
right people are doing this.
    I have two questions. The first one is, if I could get an 
answer for the record because it would take too long, but I 
have not agreed quite often with some of the things of Senator 
Levin, some of the positions he's taken, but one that I have 
agreed with is we need to budget this stuff and not have it 
depend on these emergency supplementals. I notice the 79 
specific recommendations. We have not gotten into that, and I'd 
like to do that. Some of the things that you're doing, I think, 
I'm glad you're talking about, and that is this 5-year 
limitation on reset. I had occasion to be to the Army logistics 
centers and see the lines, and I recognize that's going to be a 
very expensive thing and we need to address that.
    Also on the train and equip. I've been more impressed than 
some of the rest of the people on this committee over the 
quality of training that we're giving these people. I was in 
Afghanistan. I've had 12 trips over there to the area of 
responsibility (AOR), and I saw the way that they are taking up 
their training, their abilities, and I think maybe a lesson 
could be learned in Iraq.
    But I've also seen the equipment that they're using, up in 
Fallujah during one of the elections. I saw them carrying 
around this old Russian stuff. Most of it didn't work. So we 
have to get them the right equipment. You acknowledge this in 
the report, but again this is a very expensive thing, and I'd 
like to get something for the record on where we might go in 
addressing that and preparing ourselves fiscally for the 
future.
    Mr. Baker. On budgeting, Senator--and Lee's the one to 
answer this question, but on budgeting we have a specific 
recommendation about the question of supplementals in here.
    Senator Inhofe. I know you do.
    Mr. Baker. We say the costs for the war should be included 
in the President's annual budget request starting in fiscal 
year 2008.
    Senator Inhofe. Yes, sir, I understand that. I'm talking 
about amounts, so we can get an idea of what that's going to 
be. I applaud the fact that you've included that.
    But one thing that was not in the report, when you talk 
about the advisory teams and the drawdowns that will be taking 
place or the redeployment, you talk about the ground forces, 
and I was a ground guy, so I have a prejudice in that 
direction. But nothing is really said about the air support. 
Right now, the only places outside of Iraq that we have that 
capability would be in Qatar, Bahrain, and maybe Kuwait.
    But as we're drawing down, we also are going to lose some 
of our capability to take care of our F-16s, our A-10s, and 
other equipment that's going to provide ground support. Now, I 
would like to see that added as a component of the ground 
deployment, and I wondered if you had any comments about 
whether or not you took that into consideration, and if not 
where we should go with that?
    Mr. Hamilton. That's totally consistent, Senator, with 
everything we heard. I think we used the word ``support.'' 
Perhaps we weren't specific enough in some respects. But air 
support is clearly needed in large quantities, maybe needed in 
even larger quantities if we go to this embedded idea. So that 
equipment has to be available and the people have to be trained 
for that.
    I want to say that, with regard to your comment on the 
quality of training, I think was quite appropriate, and I just 
emphasize that I really do think we've made improvements here 
in training. It took us a while. I think we were a little slow 
to learn on it, but we're getting it right, I believe. It's 
terribly important that we do.
    Senator Inhofe. Thank you very much for your service.
    Chairman Warner. Senator Lieberman.
    Senator Lieberman. Thank you.
    Thanks to both of you for the contribution that you've made 
to the decisions that the President and Members of Congress now 
have to make about what to do in Iraq. I want to make two quick 
points and ask a question. I think perhaps the most significant 
thing you've done is to set an example for us, that five 
Democrats and five Republicans sat and reasoned together about 
what we should do in Iraq to succeed, because you have stated 
your understanding quite clearly of the importance of how our 
involvement ends in Iraq, how important it is to end it 
successfully.
    Too much of our debate here about Iraq has been carried out 
in partisan press conferences, and that has to end and I think 
you've created an example for us as to how to do that.
    The second point is that I must say, notwithstanding what 
the media has said, I find that large parts of the report are 
not that different than the course--it's not ``stay the 
course,'' but than the policies that we have been following. In 
the cases where you have made a choice, I want to compliment 
you and say I think you've made some right choices.
    For instance, you have rejected the idea of a deadline by 
which we must remove all of our troops from Iraq because of 
what's at stake there. You have rejected the idea of a time 
line to begin withdrawal of troops. You have said, ``All combat 
brigades not necessary for force protection could''--I 
emphasize, ``could''--``be out of Iraq by the first quarter of 
2008.''
    In fact, as you said, Secretary Baker, the report does 
recommend a surge in our forces there now to try to grab hold 
of the situation, particularly in Baghdad. So I appreciate that 
you have expressed that consensus, because these are ongoing 
debates here.
    The question is this, and let me just say that I totally 
support the idea of a regional approach, an international 
conference. I believe that the United States is strong enough 
never to fear to sit down and talk to anyone. But if I may say 
respectfully, others have described this commission as composed 
of realists. You haven't described yourself that way. I'm 
skeptical that it's realistic to think that Iran wants to help 
the United States succeed in Iraq. They are, after all, 
supporting Hezbollah, which gathers people in a square in 
Beirut to shout ``Death to America.'' They are giving 
sophisticated IEDs to the militias which are killing Americans 
every day in Iraq.
    So to say that, as you do, that Iran should stem the flow 
of arms and training to Iraq, respect Iraq's security and 
territorial integrity, and use its influence over Iraqi Shia 
groups to encourage national reconciliation--why is there any 
reasonable belief that the Iranians should do any of the things 
that you think they should do? If they do, won't they ask us an 
unacceptable price, which is to allow them to go ahead----
    Mr. Baker. Develop nukes?
    Senator Lieberman. Exactly.
    Mr. Baker. Yes. Senator, thank you. That's a very good 
question and let me answer it this way. First of all, we 
specifically exclude any linkage to the nuclear proliferation 
issue. We say that should not be taken up in any discussion we 
might have with Iran.
    You're saying why should we approach them? There are two 
reasons in my opinion. One, we did so in Afghanistan and, guess 
what, they helped us. Now, you're quite right, they probably 
would much prefer to see us stay bogged down in Iraq. But 
approaching them in the context, Senator, of pulling together 
all of Iraq's neighbors to put the finger on each one of them 
and say, you can do this, you can do that, you can do this, and 
they can all do a better job of not stirring, fomenting 
trouble, or they can do a better job of trying to assist. Some 
of them are actually trying to assist.
    But if we ask Iran to come and they say no, we and the 
Iraqi government, and they say no, then we will hold them up to 
public scrutiny as the rejectionist state that they have proven 
to be. Now, we're not naive enough to think that in this case 
they may want to help. They probably don't. The President 
authorized me to approach the Iranian government. I did so, and 
they in effect said: We would not be inclined to help you this 
time around.
    Fine. What do we lose by saying we're getting all of Iraq's 
neighbors together, we want you to come, and if they say no we 
show the world what they're all about.
    Syria is a totally different issue, a totally different 
proposition, and I didn't understand you to say what makes you 
think we could get something out of Syria. What makes me think 
that is we have it, I have it, back in 1991 after 15 trips 
there, at a time when they were a state that sponsored 
terrorism. But we talked to them and we made them change 25 
years of policy.
    Senator Lieberman. Yes, I agree with that. So I appreciate 
your answer. There's obviously a lot to gain from getting most 
of the neighbors who have common interests to ours in not 
seeing Iraq collapse and go into chaos. I'm just not convinced 
that the Iranians do, and I single out the Iranians. I 
appreciate the fact that you just said that--I don't want to 
put words in your mouth--that the Iranians probably won't want 
to assist us.
    Mr. Baker. We say it in the report, Senator. It's in the 
report. We say we've approached them; based on our limited 
contact we suspect they will not come. But what do we lose by 
approaching them, in the same way that this same administration 
has approached them with respect to Afghanistan?
    Senator Lieberman. Thank you.
    Chairman Warner. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    First let me echo the thanks of my colleagues on this 
committee for your study, for your dedicated work. We really 
need a bipartisan approach to developing a new strategy for 
Iraq since the current strategy clearly has not been 
successful.
    I appreciate your blunt assessment of where we are, your 
description of Iraq as a situation that is grave and 
deteriorating. It's very realistic. I do share some of the 
concerns that have been expressed here this morning about some 
of the specific recommendations. Like my colleague from 
Connecticut, I must say that, while I'm always open to our 
country talking with anyone, I'm very skeptical that Syria, 
which has been the source, or the path for foreign fighters to 
get into Iraq, and Iran, which has provided munitions and IEDs 
that have killed or maimed so many of our troops, are really 
going to be partners in the solution.
    For my question, however, I want to go back to the issue 
that Senator McCain has raised. Under your proposal we would 
have American advisers, both civilian and military, embedded in 
Iraqi units all over Iraq, down to the company level, as you've 
said. That means that thousands of Americans are going to be in 
units all over Iraq. If we withdraw all of the combat brigades, 
as you have recommended, except those necessary for force 
protection, how can we really ensure that we're going to have a 
sufficient number of troops for force protection? It seems to 
me that's going to require a massive effort if we're dispersing 
our advisers.
    I like the embedding concept. I think we should do more of 
it. But I'm just wondering as a practical matter whether that 
isn't an invitation to attack American troops that are one by 
one in small units.
    Mr. Hamilton. We're not at all satisfied with the present 
exposure of American forces and we want to make some changes. 
As we say in the report, the options in front of you aren't 
very good. You want to get out in a way that is responsible. 
America has a lot of interests there and that's why we reject 
the idea of a precipitous withdrawal. But we think the best 
course forward is the embedded approach; absolutely not risk-
free.
    We spent a lot of time in wording those sentences involving 
that in the report, and I think you'll see that we made quite 
an allowance for the necessity of having the forces in place to 
protect Americans who are embedded. That's what we mean by 
force protection, and it involves a lot of aspects and it 
includes having some American combat forces there, such as 
Special Operations Forces and rapid reaction teams so that you 
can move in quickly when a problem breaks out.
    That will have some risks to it, and there will be some 
American casualties there, but not like I think we're now 
suffering.
    Mr. Baker. Combat brigades, Senator, dedicated to force 
protection.
    Senator Collins. It just seems to me that you're going to 
have to have a substantial combat presence in order to protect 
those advisers.
    Mr. Hamilton. I think you will have to have substantial 
capabilities to protect those advisers, and obviously any 
American, every American Member of Congress, I'm sure wants to 
do whatever is necessary to protect those people. But you have 
to be candid here and the candor part of it is, when you put 
these men into Iraqi units they're very exposed, and you have 
to do everything you can to protect them, but it's not risk-
free.
    Mr. Baker. The Pentagon, of course, is coming up with its 
own study here in connection with where we go from here with 
Iraq. I don't know this for certain, Senator, but I think they 
have done some looking at this business of how many combat 
brigades they might need for force protection if we beef up the 
training, equipping, and advising mission.
    Senator Collins. Thank you.
    Chairman Warner. Thank you very much, Senator. It's an 
excellent question.
    Senator Reed.
    Senator Reed. Thank you very much, gentlemen, for your 
extraordinary work and the work of your colleagues.
    This issue of troop levels, of surging troops, I think is 
an important one, and I think it rests on some basic questions: 
How many troops would be necessary, how long must they stay 
there, and for what purpose would they be sent into Baghdad in 
particular? Baghdad as I understand it is a city of about 6 
million people. In your deliberations did you have a notion of 
how many additional troops would be necessary to make an 
impact?
    Mr. Hamilton. In Baghdad?
    Senator Reed. In Baghdad, if that was the only area we 
decided to be proactive.
    Mr. Hamilton. I think we're impressed that the operation in 
Baghdad has not gone well and has not met our expectations, and 
that the Iraqi forces that were assisting us there have not 
performed all that well. I don't know that we have, Senator 
Reed, an exact estimate. The figure that Jim and I just 
mentioned to one another is 20,000. I think that was the figure 
that might be available in country pretty quickly to help in 
Baghdad.
    Mr. Baker. General Corelli's Reserves are about 20,000 in 
Kuwait and Germany, as I understand it.
    Mr. Hamilton. Now, I know you've talked to the commanders a 
lot, but it's not crystal clear to me that the commanders 
believe that additional forces will help all that much.
    Senator Reed. My impression is that if you're going to take 
this road, the force has to be substantial in size and you have 
to be prepared to be there for not 2 or 3 months as a 
demonstration, but probably longer than that, which again 
raises the issue of how such a force can be supported in size 
over the time.
    It also raises the other issue, too, which is for what 
purpose. The strategy that's being pursued there now, the 
clear, hold, and build strategy--and I think your report 
alludes to this--has become the clear, hold, and wait strategy, 
where military forces are on the ground, but not the 
complementary reconstruction, political governance aspects. I 
think your report goes to the point, unless we're able to do 
all of this together simultaneously, in a coordinated fashion, 
none of it will work.
    Mr. Hamilton. That's right.
    Senator Reed. So that begs the other question of, let's 
assume we're going to plus-up our forces in Baghdad, for just 
one example, by 50,000 troops. I think we have to ask the other 
question: How many more civilian personnel, how much more 
reconstruction money, how is it delivered? That has to be part 
of the equation because to simply talk in terms of troops 
misses the whole essence of this operation, which is it's a 
political dynamic and an economic dynamic, as well as a 
military one.
    Mr. Hamilton. I think you make a very good point. I don't 
want to understate this, but the clearing aspect is not the 
tough part. Now, you may sustain casualties there and obviously 
that's the most serious consideration, but we have the ability 
to clear, no doubt about that. The real question is can we 
hold? What has happened is that we have not been able to hold, 
and the very forces that you've pushed out filter back in 
again. Holding is very manpower-intensive. You would normally 
look to the police to help, but the police have been the most 
disappointing in terms of performance in Iraq, the various 
Iraqi police forces.
    Chairman Warner. Thank you, Senator, very much.
    Senator Reed. Thank you.
    Chairman Warner. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Gentlemen, thank you once again for your strong leadership 
and your commitment to freedom and to the American people. We 
indeed owe you a debt of gratitude and we do thank you very 
much.
    Going back to what Senator Lieberman was talking about with 
reference to the Syrians and the Iranians, I happen to like 
your approach to some sort of coalition approach to these two 
countries, and I'm not sure that we can ever achieve any sort 
of total peaceful resolution in that part of the world without 
the involvement of a number of those countries, and 
particularly in Iraq with regard to the Syrians and the 
Iranians.
    However, you correctly point out in your report that the 
Iranians and the Syrians are providing financial assistance, 
they're providing training, they're also weaponizing to a 
certain degree the insurgents. Before we ever get to the point 
of a coalition group sitting down at a table or entering into 
any sort of diplomatic negotiations, should we not receive some 
sort of overt act from the Syrians and the Iranians relative to 
a public commitment to stopping the violence, and to ceasing 
their support of the insurgent activity in advance of any kind 
of diplomatic overture?
    Mr. Baker. Senator, the two countries, in our report, we 
approach them differently. With respect to Iran, we're not 
suggesting direct bilateral negotiations with Iran on a wide 
variety of issues, and particularly not the nuclear issue. We 
are suggesting that, with respect to Syria, in terms of 
progress on the Arab-Israeli conflict, going back to the Madrid 
conference of 1991 and the two tracks, one on Palestinians, one 
Lebanese-Syrian, we think we ought to try and reenergize that. 
That's a different proposition.
    On September 18, Secretary Rice attended a meeting of the 
International Compact for Iraq, which is an economic grouping 
of regional countries, and sat there in the meeting with the 
Iranian foreign minister. So I don't know that preconditioning 
it in terms of inviting them to some sort of a regional meeting 
to improve the situation in Iraq is necessary. I don't know 
that we lose anything by saying to them, you want to be part of 
the solution instead of part of the problem? If they say no, 
fine; everybody in the world knows the attitude that they take 
and we haven't lost a thing, particularly given the fact we've 
already sat with them as recently as the 18th of September.
    With respect to Syria, I think it's different, Senator. I 
think there are some opportunities there, that it is in the 
national interest of the United States to explore the peace 
process.
    Chairman Warner. Senator Nelson, I inform my colleagues the 
vote has started.
    Mr. Hamilton. Excuse me.
    Chairman Warner. Please go ahead.
    Mr. Hamilton. We've had more than a little pushback on the 
Syrian and Iranian question because it's a tough one.
    We understand that the road to peace lies through Baghdad 
in Iraq and you don't get peace unless a lot of things happen 
there. But we also believe that what you do in the region can 
be reinforcing of what steps are necessary to take in Iraq, and 
that Iraq's neighbors have to play a role in all of this. Syria 
and Iran have very great influence over events within Iraq, 
particularly Iran, but also Syria. I just don't think you can 
avoid that.
    Now, it is quite true that the Iranians have not been all 
that helpful, as a matter of fact just the opposite, in Iraq 
today. But we do not think it's in the Iranian interest for 
American policy to fail completely and to lead to chaos in that 
country. It is important to take a look at Iran itself. Iran is 
not a homogeneous population. Only slightly more than 50 
percent of its population is Persian, and what they are really 
worried about is a flow of refugees into that country, which 
would be highly destabilizing.
    So Iran has some interests here that we must not forget. Of 
course, they live in a very dangerous part of the world and 
they have huge security interests. It is quite possible--we 
don't know that this is probable, but it is possible--that you 
can put together some incentives and disincentives that can 
attract them. As Jim has repeatedly pointed out, you don't have 
much to lose here. Things are not going in a very good 
direction right now, and why not take some chance here in 
involving these countries?
    Chairman Warner. Secretary Baker, do you want to add?
    Mr. Baker. I want to just direct your attention if I could, 
Senator Chambliss, to the bottom of page 56, the top of page 
57, with respect to the issues we would raise with Syria, if we 
could reenergize the peace process to deal with the Arab-
Israeli conflict. You'll find in there we would ask everything 
of them. We're going to want their full cooperation in these 
assassinations in Lebanon, stop screwing around in Lebanon, 
implement U.N. Security Council 1701.
    But there's one thing that, if we were able to bring Syria 
around--and you know, they're a Sunni Arab state. I think they 
want to resume good relations with their Sunni Arab neighbors, 
and I think they would much rather be on a normal relationship 
basis with the United States than they would their marriage of 
convenience with Iran. What could they do for us and what could 
they do for our ally Israel? They could--if we could bring 
Syria back, we could stop the flow of arms to Hezbollah, 
because they are the transit point, and that would cure 
Israel's Hezbollah problem.
    Second, they have the ability in my opinion to get Hamas to 
recognize Israel's right to exist, which would give Israel a 
negotiating partner on the Palestinian track, something that 
Israel badly wants.
    Chairman Warner. Thank you very much, gentlemen.
    I note the vote is on, but we will be able to meet your 
deadline and all Senators if we keep it short. I will now turn 
to Senator Nelson.
    Senator Bill Nelson. Thank you, and thank you to both of 
you. Your success in government has been extraordinary. Thank 
you again for your contribution. Secretary Baker, about the 
only thing that I disagree with your success in the past is the 
34 days that you spent in Tallahassee, Florida.
    Mr. Baker. 37, Senator.
    Senator Bill Nelson. 37 days in Tallahassee, Florida in 
November and December 2000. [Laughter.]
    I want to point out that Associated Press has moved a story 
today that the prime minister of Israel said he disagreed with 
your recommendation of linkage of efforts to stabilize Iraq 
with the new moves to end Israel's conflict with its neighbors. 
Your report recommends negotiations toward the Syrian-Israeli 
peace agreement that would include Israel's return of the Golan 
Heights, Syria, ending its support for the terrorist groups, 
agreeing to full normalization with Israel, and ending its 
attempts to dominate Lebanon.
    Are you suggesting that the war in Iraq cannot be resolved 
unless Israel and the United States reach an accord with the 
Golan Heights? I know you're talking about a comprehensive--if 
it's true, does it mean that the conflict in Iraq could be 
extended indefinitely by rejectionist hard-liners in conflicts 
that have long predated this Iraq conflict?
    Mr. Baker. I'm not sure you can say that, Senator. But let 
me mention one other thing that's in there that we recommended 
in connection with the Golan Heights. We don't suggest that if 
Syria does all these things you've outlined and that we have 
outlined here that there should be a peace agreement between 
Israel and Syria on the Golan Heights without a United States 
security guarantee. That's a very important point and should 
not be left out.
    The reason we have the suggestion for a new diplomatic 
offensive in this document is because we think we need to have, 
as Congressman Hamilton has said, a comprehensive strategy to 
deal with the problems of Iraq and the problems of the region. 
I don't think there's anybody we talked to that did not raise 
this issue of our engagement on the Arab-Israel peace process, 
and every one of them said without exception you need to become 
re-engaged in a very vigorous way on this issue.
    Senator Bill Nelson. So too with the proposed two-state 
solution. The prime minister of Israel has said he wants to 
negotiate with Mahmoud Abbas. What do you recommend if Hamas 
says no dice?
    Mr. Baker. I recommend that we bring Syria across and get 
them to get Hamas to acknowledge Israel's right to exist, so 
Israel would have a negotiating partner on the Palestinian 
track. That's exactly one of the main reasons for engaging 
Syria. If we can't do it we can't do it, but we don't lose a 
darn thing by trying.
    Mr. Hamilton. Senator, there are a lot of moderate Arabs 
that you have to appeal to in order to solve the Iraqi problem. 
All of them are friends of ours--the Saudis, the Jordanians, 
the Egyptians, the Kuwaitis, the Gulf States. It goes on and on 
and on. Now, in order to appeal to the moderate Arabs--and this 
is hugely important in our relationship with Islam and the 
Islamic countries, 1.3 billion Muslims in the world--in order 
to appeal to that group, you have to be able to show that we 
are serious about dealing with the Arab-Israeli dispute. It is 
absolutely essential.
    Now, you used the words, I think, are we requiring that we 
reach an accord? No, we're not requiring that and I don't think 
it's required. What is required is that the United States re-
energize this process. We're not going to solve it. It's been 
here for a number of decades. We're not going to solve it 
quickly. So it's not so much a question of solving the problem. 
It is a question of the United States as the principal power 
being sensitive to this and trying to do what we can to move 
towards a solution of the Israeli-Palestinian problem. Without 
it, we have no credibility, we have no legitimacy, with the 
moderate Arabs, who are key for us.
    Chairman Warner. Thank you very much.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Again, thank you both on behalf of our country. I think the 
biggest contribution you've made is to explain to us the state 
of affairs in Iraq as they are, and we may not agree on 
solutions for it, but that's a beginning point, and we've never 
really had a consensus until you came along. Things are not 
good.
    Based on your review of our situation, not only just in 
Iraq but of our own military, do you think Congress would be 
well-advised to consider growing the Army and Marine Corps?
    Mr. Baker. I personally do, but then I'm a former marine.
    Mr. Hamilton. I do as well.
    Senator Graham. We may have to draft you back into the 
Service here.
    Mr. Baker. There's no such thing as a former marine. Let me 
correct the record. I am a marine.
    Senator Graham. You're always a marine. Once a marine, 
always a marine.
    Mr. Baker. That's right.
    Senator Graham. I'm glad you're on our side, then and now.
    Mr. Baker. That's right.
    Senator Graham. Now, to me the heart of the matter is, we 
can differ about how to go forward and that's okay, nothing 
wrong with having different opinions. I get asked all the time, 
gentlemen, on the streets of South Carolina and every other 
place in the country I go to: Are we in the middle of a bunch 
of people who could never solve their problems no matter how 
much we help them? So the question is, based on your assessment 
of the situation, are the Iraqi people capable of forming a 
democracy with the right assistance?
    Mr. Baker. I think so.
    Mr. Hamilton. Our whole premise of the policy is that they 
are.
    Senator Graham. Okay. The second question is----
    Mr. Baker. Excuse me. The whole premise of our policy 
suggestions in our report is that they are.
    Senator Graham. That's important for the country to hear, 
because a lot of Americans don't believe that. Do you agree 
with that?
    Mr. Hamilton. I think I do agree with it. Your judgment on 
that would be better than mine. Now, I don't want to pretend to 
you that I don't have doubts.
    Senator Graham. I don't mean to--well, I think we all have 
doubts. We probably have doubts about our own democracy. The 
Civil War was started in my State. We had a lot of doubts 
there, and I'm glad we resolved them in favor of the Union.
    Mr. Hamilton. There are a lot of pundits writing now about 
how the Iraqi government will never be able to get their act 
together and the whole situation is hopeless. That's not 
exactly a policy. We are where we are. We have to deal with 
this. You have a democratically-elected government.
    Senator Graham. But you both believe, after having analyzed 
the situation, that there's reason to believe with the right 
assistance they can pull this off?
    Mr. Baker. Yes.
    Mr. Hamilton. Yes, we believe that. The ``if'' clause you 
used is hugely important.
    Senator Graham. That's where the debate is, and I don't 
want to monopolize more than my time.
    Last question. If you asked the 10 members of the 
commission the question, is Iraq the central battle front in 
the war on terror, what answer would you have received?
    Mr. Baker. I'll answer for myself, Senator. In my view it 
may not have been when we first went in, but it certainly is 
now.
    Senator Graham. The outcome affects the overall war on 
terror?
    Mr. Baker. It certainly does.
    Senator Graham. Mr. Hamilton?
    Mr. Hamilton. I would strike the word ``the'' and use 
``a''. It is a central front. Look, al Qaeda today is an 
important part of the violence, but not as important as 
sectarian violence. It is a central front in the war on terror, 
but to make it the central front overstates it.
    Senator Graham. Well said.
    Chairman Warner. Thank you very much.
    Senator Graham. Thank you, Mr. Chairman.
    Chairman Warner. Senator Clinton.
    Senator Clinton. Thank you very much again, gentlemen, for 
your service to our country once again. I think you can tell 
from the tenor and content of the questions that we're 
searching for the best way to implement a series of policies 
and actions that might possibly move us forward.
    As I listen to you and as I reviewed the report, I'm 
basically hearing two overriding suggestions: one, that we have 
to engender the will and assist the capacity of the Iraqi 
government to take the political and economic actions necessary 
to stabilize itself, and our biggest stick in order to do that 
is to make it clear we are not there unconditionally, we are 
not going to be babysitting a civil war, we are not going to 
take sides in sectarian violence. Is that a correct statement, 
number one?
    Mr. Hamilton. I think it's a correct statement, but it's 
not the only leverage we have, the troop level. I think the 
conditionality of aid is another leverage. I also think if you 
play it right the regional diplomacy which Jim has been talking 
about can be used very effectively as leverage on the Iraqi 
government.
    But you're right, we think you have to encourage the Iraqi 
government to act, and the military troop level is a very 
important part of that.
    Senator Clinton. But let me follow up and ask about our own 
Government, because you have a series of recommendations that 
are both comprehensive and challenging. The idea of a 
Goldwater-Nichols process that would get us where we need to 
be, that took decades. We know it was contentious. It made 
significant changes. We don't have time for that.
    You have other recommendations that talk about engaging the 
entire United States Government, using all the tools at our 
disposal. We've now heard from the Iraq Study Group, but we 
need the White House to become the ``Iraq Results Group.'' That 
is very frustrating for some of us. We don't understand the 
misjudgments and missteps that have been taken in the last 
years.
    What advice can you give us as to the role that Congress 
can play to try to help create the conditions that our own 
Government will muster both the will and capacity to act along 
the lines that you've recommended, and that I think we in 
general agree need to be pursued?
    Mr. Baker. Senator Clinton, I think if Congress were to, in 
addition to praising this report, which many Members of 
Congress have and for which we are grateful, say this is a good 
basis for going forward and unifying the country behind a 
single approach to this difficult problem of Iraq, that would 
help, I think, the executive branch in its deliberations.
    They just received the report yesterday, just like you just 
got it yesterday, and we've heard differing views here with 
respect to many of the recommendations. If Congress could come 
together behind supporting, let's say utopianly, all of the 
recommendations of this report, that would do a lot toward 
moving things downtown in my opinion.
    Mr. Hamilton. Congress is a co-equal branch of Government. 
I frankly am not that impressed with what Congress has been 
able to do. I think Congress has been extraordinarily timid in 
the exercise of its constitutional responsibilities on the 
question of warmaking and conducting war.
    Now, the answers here are not easy, but in a word I think 
very robust oversight is necessary. I think it's been lacking. 
I think it has not been a strong performance by Congress. What 
can you do to most assure success of the policy? I would say 
very vigorous, robust oversight. Many of the problems that you 
mention that have occurred we did not examine because we 
thought they are out of our mandate. I think they could have 
been corrected with vigorous oversight.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you.
    I feel I must make an observation here. Yes, Congress is 
very impressed with your report. But we, the Congress, I do not 
know the extent to which we will be able to share the 
President's internal review of his own security who will come 
up with a framework of points. So we have to be cautious as we, 
I'm sure, endorse what you have done, but at the same time I 
don't know to the extent we will have before us the full realm 
of the options that have been shown to the President, namely 
from his own internal staff, as well as from the Chairman of 
the Joint Chiefs.
    So before Congress rushes in, I'm just hopeful we can have 
all points.
    Mr. Baker. Thank you, Senator, but could you say this is 
good until something better comes along?
    Chairman Warner. I'll let your question stand unanswered. 
Thank you, dear friend. I know you too well.
    Senator Cornyn.
    Senator Cornyn. Gentlemen, let me add my word of thanks. I 
think you've rendered a great service to the country. Clearly 
now, or at least by the time the process of the Pentagon and 
the State Department and within the executive branch itself in 
addition to your good work, it'll be clear that this situation 
has been analyzed without regard to ideology, without regard to 
partisan affiliation, without regard to the consequences of the 
next election, but in the interests of the country.
    I think the second service that you've rendered is to point 
out that this is not just about Iraq, that the debate seems to 
be, how do we fix Iraq. You've made clear that Iraq cannot be 
viewed in isolation and I think rendered a service in making 
that point.
    There have been some, of course, during the course of the 
debates in Congress and during the recent election who have 
said that we need to have a phased withdrawal from Iraq. The 
irony of that to me is that we all agree we need to bring our 
troops home as soon as we can. The question is whether it's 
based upon domestic political considerations or based upon our 
national security interests.
    I've always scratched my head and wondered why it's 
appropriate to threaten the Iraqis that unless they shape up 
we'll ship out, when in fact if we ship out before Iraq becomes 
more stable it remains an ongoing threat of a failed state 
which will provide opportunities for terrorists to regroup and 
to continue their assaults against the United States, not to 
mention the chance, the likelihood, of Iranian expansionism in 
the area.
    I have really two questions, if I can ask them quickly. One 
is, Secretary Baker, you've been good to point out and your 
report points out on page 52 that the President has authorized 
you to approach the Iranians about their likely participation 
in diplomatic efforts to support stability in Iraq, and they've 
indicated to you they would be unlikely to participate. Did I 
get that correct, sir?
    Mr. Baker. That's correct.
    Senator Cornyn. There are some who've criticized the 
President for not agreeing to talk to Iran. But from what 
you've told us here today, the President has authorized you to 
do so and they've indicated their disinclination.
    Mr. Baker. Further to that, Senator, the President 
authorized his Secretary of State to attend a meeting with the 
Iranian Foreign Minister in the International Compact for Iraq 
on September 18. Furthermore, with respect to Afghanistan he 
authorized his administration to approach the Iranians to help 
us in Afghanistan and they did.
    Senator Cornyn. You've been around this city a lot longer 
than I have, but sometimes these positions appear to be 
caricatured in a way that isn't justified by the facts. I 
appreciate your pointing that out.
    Mr. Baker. Before you ask the second question, may I just 
say something about the ``shape up or ship out''? We had to 
walk a fine line here between being overbearing in that regard 
and giving the Iraqis the message that we can't just stay there 
forever if they're not willing to take some political actions 
that they need to take.
    So the sentence was very carefully crafted. You can look at 
it at your convenience, but it says if they do not make 
substantial progress on these milestones, the United States 
could reduce its military, political, or economic support. So 
it's not a case of shipping out necessarily. The President will 
have the latitude to determine what he wants to do by way of 
reduction in support.
    Senator Cornyn. My last question is, you recommend that the 
United States talk to al-Sadr. At one point there was an arrest 
warrant out for al-Sadr. Why do you recommend that we talk to 
him rather than arrest him and bring him to justice?
    Mr. Hamilton. Because he's a very important leader in the 
country. We had described to us again and again that the most 
important politician in the country was Sistani, who's a 
clergyman. If you really want to influence events in Iraq, you 
go to the Grand Ayatollah and his principal people. That's the 
nature of the society.
    Now, we have tried to speak to Sadr and he won't talk to 
us. We tried to speak to Sistani. He won't talk to us either. 
So it's not that we haven't tried. But the point here is, I 
think, that the religious leaders in this country are hugely 
important, not just as religious leaders, but as political 
leaders too.
    The only person I know that talks to either of these 
gentlemen is the U.N. representative in Baghdad, and even his 
contact has been limited. So we recognize, number one, their 
importance; number two, the difficulty of talking to them; and 
number three, we think it would be good if we could talk to 
Sadr.
    Mr. Baker. Senator, that arrest warrant, you're right, but 
it was quite some time ago, and it was rescinded after Bremer 
left.
    Senator Cornyn. Thank you, Mr. Chairman.
    Chairman Warner. Senator Dayton, would you indulge me? I 
wish to go vote.
    Senator Dayton. Yes.
    Chairman Warner. Then Senator Levin and Senator Thune will 
resume.
    I want to reiterate, Mr. Secretary, my profound gratitude 
for your report. It's important. But if Congress is going to be 
a partner to work through this, you can understand that before 
we come forward with such recommendations as we wish to make 
we'd like to hear from our President about his own internal 
review.
    Mr. Baker. Absolutely. I understand that, Senator. 
Absolutely.
    Chairman Warner. Then have some input. Now, practically 
we're going to be out of here in about 48 hours, not to return 
until the first week in January. So this poses a challenge.
    Mr. Baker. Absolutely.
    Chairman Warner. But I'm sure a number of us could come 
back and work with the administration. I know my colleague has 
indicated his willingness to join me.
    Senator Levin. With the President, indeed we made that 
point. The chairman made it to the President. He indicated he's 
more than willing to involve that part in the process and to 
receive our reaction before something is just announced. Not 
just the two of us. I'm saying the reaction of leaders of 
Congress.
    Chairman Warner. I just ask one observation that perplexes 
me greatly. I've been back and forth, maybe not as many times, 
certainly not as many times as you have, Mr. Secretary Baker 
and Congressman Hamilton, to that part of the world in my 28 
years in the Senate and then 5 years before that when I was in 
the Navy secretariat. Throughout history, the Sunni and the 
Shia have found the ability to live together in peace. To a 
certain extent, that's being done in the peripheral states. Now 
we see a mass exodus to Jordan, primarily Sunni but undoubtedly 
some Shia, living in peace. We do not hear of any instance of 
this sectarian violence to speak of in the bordering states.
    What is the root cause for this thing suddenly to erupt in 
Iraq like a volcano, where they lived in Iraq prior to our 
intervention, which I support that intervention, intermarried, 
lived side by side? What is the root cause that has caused this 
volcanic sectarian violence, wanton, senseless killing of each 
other?
    Mr. Baker. Senator, this is the first time to my knowledge 
that you've ever had a state that has been dominated by one of 
those ethnic groups, in this case the Sunnis, who represented 
only 20 percent of the population, but who have ruled over, in 
a fairly ruthless way, the remaining 60 percent of the 
population that is Shia. I think that's part of the problem.
    Another part of the problem, quite frankly, are the efforts 
of al Qaeda in Iraq and people like Abu Musab al-Zarqawi, who 
set about specifically to foment sectarian violence as the best 
way to advance al Qaeda in Iraq and to bring down the 
government that the United States had established in Iraq.
    Chairman Warner. I thank you both very much, and I must 
depart for the vote at this point in time. But you've made a 
remarkable contribution and it just shows how within our 
private sector there are those who are willing to receive the 
call to come back and perform admirable public service and 
valuable public service.
    Mr. Baker. Senator Warner, thank you. I want to add my 
appreciation to that of Congressman Hamilton. I remember the 
day we rolled out the announcement of the Iraq Study Group on 
March 15 of this year. You were kind enough to be our host on 
that occasion. Without you or Congressman Wolf, and perhaps a 
few others, there would not have been an Iraq Study Group. So 
thank you, sir.
    Chairman Warner. I thank you with a great sense of humility 
for that recognition.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    Thank you, gentlemen, both for your service. Some cynic was 
quoted as saying that in Washington when the situation is 
hopeless people turn to a commission. If you could help me 
translate your description of the situation in Iraq as grave 
and deteriorating into that vernacular, if you put hopeless on 
a scale of one and complete success a ten, where are we in Iraq 
today, just a number?
    Mr. Hamilton. I think we reject the idea that the situation 
is hopeless.
    Senator Dayton. So it's not a one. Where are we on that 
spectrum from hopeless to successful?
    Mr. Hamilton. Oh, my mind doesn't think in those 
quantitative terms, I guess, Senator. I think where we are is 
that the situation is just very difficult, that political 
leaders have the responsibility in this country to let people 
know how difficult that situation is. We tried to spell that 
out in the assessment to some degree.
    But we also said that if we take the right steps we can 
improve it, and that's where we are in terms of public policy, 
to try to take the right steps now. Nobody can assure success 
even if we take the right steps, but you can certainly secure 
failure if we don't take those steps.
    Senator Dayton. I understand. This leads into my next 
question, which is: To get to the point where your 
recommendations can take hold and be successful, it seems that 
we're going on the spectrum there from, I don't know, a three 
to an eight or so. I guess others have posited this question, 
but realistically in the timeframe you've described is that 
feasible? Conversely, is there a tipping point in a rough 
timetable where if the situation remains grave and 
deteriorating it does become hopeless?
    Mr. Hamilton. There certainly is that point and we're 
perilously close to that point, and that's why we emphasize 
here very, very, great urgency in action by ourselves as well 
as by the Iraqi government.
    Senator Dayton. Mr. Chairman, I'll let our distinguished 
visitors move on.
    Senator Levin [presiding]. Thank you.
    Has Senator Nelson had an opportunity?
    Senator Bill Nelson. Yes.
    Senator Levin. We're past the 11 o'clock hour. We thank you 
for not just your contribution to this Nation and hopefully to 
the success in Iraq, but your patience. Thank you. We are 
adjourned.
    [The Iraq Study Group Report follows:]

    [GRAPHIC] [TIFF OMITTED] T3184.001
    
    [GRAPHIC] [TIFF OMITTED] T3184.002
    
    [GRAPHIC] [TIFF OMITTED] T3184.003
    
    [GRAPHIC] [TIFF OMITTED] T3184.004
    
    [GRAPHIC] [TIFF OMITTED] T3184.005
    
    [GRAPHIC] [TIFF OMITTED] T3184.006
    
    [GRAPHIC] [TIFF OMITTED] T3184.007
    
    [GRAPHIC] [TIFF OMITTED] T3184.008
    
    [GRAPHIC] [TIFF OMITTED] T3184.009
    
    [GRAPHIC] [TIFF OMITTED] T3184.010
    
    [GRAPHIC] [TIFF OMITTED] T3184.011
    
    [GRAPHIC] [TIFF OMITTED] T3184.012
    
    [GRAPHIC] [TIFF OMITTED] T3184.013
    
    [GRAPHIC] [TIFF OMITTED] T3184.014
    
    [GRAPHIC] [TIFF OMITTED] T3184.015
    
    [GRAPHIC] [TIFF OMITTED] T3184.016
    
    [GRAPHIC] [TIFF OMITTED] T3184.017
    
    [GRAPHIC] [TIFF OMITTED] T3184.018
    
    [GRAPHIC] [TIFF OMITTED] T3184.019
    
    [GRAPHIC] [TIFF OMITTED] T3184.020
    
    [GRAPHIC] [TIFF OMITTED] T3184.021
    
    [GRAPHIC] [TIFF OMITTED] T3184.022
    
    [GRAPHIC] [TIFF OMITTED] T3184.023
    
    [GRAPHIC] [TIFF OMITTED] T3184.024
    
    [GRAPHIC] [TIFF OMITTED] T3184.025
    
    [GRAPHIC] [TIFF OMITTED] T3184.026
    
    [GRAPHIC] [TIFF OMITTED] T3184.027
    
    [GRAPHIC] [TIFF OMITTED] T3184.028
    
    [GRAPHIC] [TIFF OMITTED] T3184.029
    
    [GRAPHIC] [TIFF OMITTED] T3184.030
    
    [GRAPHIC] [TIFF OMITTED] T3184.031
    
    [GRAPHIC] [TIFF OMITTED] T3184.032
    
    [GRAPHIC] [TIFF OMITTED] T3184.033
    
    [GRAPHIC] [TIFF OMITTED] T3184.034
    
    [GRAPHIC] [TIFF OMITTED] T3184.035
    
    [GRAPHIC] [TIFF OMITTED] T3184.036
    
    [GRAPHIC] [TIFF OMITTED] T3184.037
    
    [GRAPHIC] [TIFF OMITTED] T3184.038
    
    [GRAPHIC] [TIFF OMITTED] T3184.039
    
    [GRAPHIC] [TIFF OMITTED] T3184.040
    
    [GRAPHIC] [TIFF OMITTED] T3184.041
    
    [GRAPHIC] [TIFF OMITTED] T3184.042
    
    [GRAPHIC] [TIFF OMITTED] T3184.043
    
    [GRAPHIC] [TIFF OMITTED] T3184.044
    
    [GRAPHIC] [TIFF OMITTED] T3184.045
    
    [GRAPHIC] [TIFF OMITTED] T3184.046
    
    [GRAPHIC] [TIFF OMITTED] T3184.047
    
    [GRAPHIC] [TIFF OMITTED] T3184.048
    
    [GRAPHIC] [TIFF OMITTED] T3184.049
    
    [GRAPHIC] [TIFF OMITTED] T3184.050
    
    [GRAPHIC] [TIFF OMITTED] T3184.051
    
    [GRAPHIC] [TIFF OMITTED] T3184.052
    
    [GRAPHIC] [TIFF OMITTED] T3184.053
    
    [GRAPHIC] [TIFF OMITTED] T3184.054
    
    [GRAPHIC] [TIFF OMITTED] T3184.055
    
    [GRAPHIC] [TIFF OMITTED] T3184.056
    
    [GRAPHIC] [TIFF OMITTED] T3184.057
    
    [GRAPHIC] [TIFF OMITTED] T3184.058
    
    [GRAPHIC] [TIFF OMITTED] T3184.059
    
    [GRAPHIC] [TIFF OMITTED] T3184.060
    
    [GRAPHIC] [TIFF OMITTED] T3184.061
    
    [GRAPHIC] [TIFF OMITTED] T3184.062
    
    [GRAPHIC] [TIFF OMITTED] T3184.063
    
    [GRAPHIC] [TIFF OMITTED] T3184.064
    
    [GRAPHIC] [TIFF OMITTED] T3184.065
    
    [GRAPHIC] [TIFF OMITTED] T3184.066
    
    [GRAPHIC] [TIFF OMITTED] T3184.067
    
    [GRAPHIC] [TIFF OMITTED] T3184.068
    
    [GRAPHIC] [TIFF OMITTED] T3184.069
    
    [GRAPHIC] [TIFF OMITTED] T3184.070
    
    [GRAPHIC] [TIFF OMITTED] T3184.071
    
    [GRAPHIC] [TIFF OMITTED] T3184.072
    
    [GRAPHIC] [TIFF OMITTED] T3184.073
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [Questions for the record with answers supplied follow:]

                Question Submitted by Senator Carl Levin

                          phased redeployment

    1. Senator Levin. Mr. Baker and Mr. Hamilton, for some time I, 
along with Senator Jack Reed, have urged President Bush to tell Iraqi 
political leaders that the United States will begin a phased 
redeployment of American forces within the next 4 to 6 months so as to 
induce those leaders to make the political compromises that are 
required for the political settlement, which in turn is essential for 
ending the insurgency and the sectarian violence now plaguing Iraq. Our 
proposal recognized that a residual force would be needed for some 
period of time dedicated to training Iraqi security forces, conducting 
targeted counterterrorism missions, and providing logistical support 
and force protection.
    The Iraq Study Group recommends that ``by the first quarter of 
2008, subject to unexpected developments in the security situation on 
the ground, all combat brigades not necessary for force protection 
could be out of Iraq.''
    Do you believe that our proposal is consistent with the 
recommendations of the Iraq Study Group?
    Mr. Baker. The Iraq Study Group does not address the question of a 
phased redeployment. It opposes a precipitate withdrawal of troops. The 
Iraq Study Group argues that the primary mission of U.S. forces in Iraq 
should evolve to one of supporting the Iraqi army, which would take 
over the primary responsibility for combat operations. While these 
efforts are building up and as additional Iraqi brigades are being 
deployed, U.S. combat troops could begin to move out of Iraq, subject 
to unexpected developments in the security situation on the ground. It 
argues that the United States will maintain a significant force in Iraq 
in order to provide political reassurance to the Iraqi government; 
fight al Qaeda and other terrorist organizations in Iraq; train, equip, 
and support Iraqi security forces; and deter destructive interference 
in Iraq by Syria and Iran.
    Mr. Hamilton. The Iraq Study Group report does not address the 
question of a phased redeployment of U.S. forces. It recommended no 
timetable or deadline for troop withdrawals, which are left to the 
commander in chief.
    At the same time, there are common elements in the proposal put 
forward by Senators Levin and Reed and the proposal by the Iraq Study 
Group. They are not inconsistent. They offer a basis for a responsible 
transition.
                                 ______
                                 
                 Questions Submitted by James M. Inhofe

            drawdown asymmetry between ground and air forces

    2. Senator Inhofe. Mr. Baker and Mr. Hamilton, there is much 
discussion in your report about how and when to redeploy our ground 
forces, which is obviously of extreme importance, but nowhere have I 
seen detailed discussion on the disengagement of our air forces.
    I recognize that Iraqi air forces will not be able to assume 
responsibilities for air missions in the near future, but I am troubled 
by the lack of analysis on the implications of a long-term air presence 
in Iraq.
    When we redeployed ground forces in 1991 after Operation Desert 
Storm, our Air Force remained deployed in the region and has maintained 
a constant air presence there for the last 15 years.
    Many assume our air presence after the eventual redeployment of 
ground forces will be similar to the years after Operation Desert 
Storm. While there are similarities, we need to ensure we understand 
the differences.
    The no-fly zones were part of an international standoff between the 
U.N. and Saddam Hussein. They were flown in support of a U.N. 
resolution and had international legitimacy. The objectives were 
achievable through air power alone.
    Today we are dealing with an Iraqi government that wants to be seen 
as independent of U.S. influence, and we will need its permission to 
employ air power in pursuit of counterinsurgency objectives or we will 
undermine the government of Iraq's legitimacy in the eyes of Iraqis and 
hence our long-term goals.
    The situation in Iraq today is an insurgency. The ability to 
achieve counterinsurgency objectives by air power alone is limited and 
would require close coordination with ground forces. Once coalition 
ground forces redeploy, we are also left with serious dilemmas 
regarding the rules of engagement for employing air power.
    Specifically, are we going to allow Iraqi forces access to joint 
fires (air power employing ordinance) only if they have a U.S./
coalition joint tactical air controller as part of their advisory team?
    Mr. Baker. This was not an issue that the Iraq Study Group 
addressed in great detail. However, on page 72, the report states: Even 
after the United States has moved all combat brigades out if Iraq, we 
would maintain a considerable military presence in Iraq and with our 
powerful air, ground, and naval deployments in Kuwait, Bahrain, and 
Qatar, as well as increased presence in Afghanistan.
    Mr. Hamilton. The Iraq Study Group did not address your question in 
any detail.
    Given that air power is a critical part of the support mission for 
U.S. forces in Iraq, the Iraq Study Group would support a continuing, 
robust presence for U.S. air power in Iraq and the region.

    3. Senator Inhofe. Mr. Baker and Mr. Hamilton, if yes, then unless 
we leave hundreds of these advisory teams for the duration of our air 
presence, we will leave significant sanctuaries for insurgents to hide.
    If we employ air power under the control of an Iraqi controller, or 
independently of any controller at all, the effects would be too 
indiscriminate, especially in urban areas where the air power would be 
most needed.
    We also need to consider basing. No-fly zone operations were flown 
from bases outside of Iraq. If we keep bases inside Iraq, there will be 
significant force protection issues.
    If we attempt to utilize bases outside Iraq, then we must contend 
with ramp space, fuel shortages, and facilities that are already 
overloaded. Furthermore, we must consider the national caveats placed 
on our air forces regarding the types of missions we could fly from the 
remaining bases.
    If we move these assets outside of Iraq, then we will pay a higher 
bill in flight hours, tankers, and maintenance to get the assets to the 
fight.
    What consideration did your panel give to the disengagement of air 
forces, and what recommendations do you have for dealing with the 
drawdown asymmetry between ground and air forces?
    Mr. Baker. This was not an issue that the Iraq Study Group studied 
in great detail. We would leave such decisions to U.S. military 
leaders, depending on the situation on the ground.
    Mr. Hamilton. We did not address the question of air power in 
detail.
    We would defer to others on the nature of the air assets that 
should remain, and where they should be based, consistent with the 
principle outlined in the Iraq Study Group report that training should 
become the primary mission of U.S. forces in Iraq.
                                 ______
                                 
               Questions Submitted by Senator John Thune

                      police and criminal justice

    4. Senator Thune. Mr. Hamilton, on page 78 of the report under 
Police and Criminal Justice the Iraq Study Group wrote: ``The problems 
in the Iraqi police and criminal justice system are profound. The ethos 
and training of Iraqi police forces must support the mission to protect 
and serve all Iraqis. Today, far too many Iraqi police do not embrace 
that mission.'' In recommendation 50 you state that ``the entire Iraqi 
National Police should be transferred to the Ministry of Defense, where 
the police commando units will become part of the new Iraqi Army.''
    Do you believe that the current organization of the police is 
responsible for their failure to effectively combat the insurgency and 
how will placing them in the Ministry of Defense affect the long-term 
mission of the police which is not primarily a military one but a 
domestic one?
    Mr. Hamilton. The reason for recommendation 50 is that the Iraqi 
National Police is comprised of heavily armed units engaged in 
commando-style operations. That mission fits better under the Ministry 
of Defense.
    Moreover, U.S. advisers have greater access in the Ministry of 
Defense than they do in the Ministry of the Interior. Units under the 
command of the Ministry of Defense perform better than those under the 
Ministry of Interior.
    It is our belief that a reorganization of this kind can be helpful 
as part of the comprehensive reforms necessary to create professional, 
well-trained, non-sectarian Iraqi security forces.
    The Ministry of the Interior will still have responsibility for 
traditional policing activities, which are carried out by the Iraqi 
Police Service, and the Iraq Study Group outlined several 
recommendations for reform of that Ministry.

                             reconciliation

    5. Senator Thune. Mr. Hamilton, in other areas of the report the 
group emphasizes the importance for Iraq to follow through with the 
reconciliation program. The reconciliation between Sunni and Shia is, I 
believe, at the heart of stabilizing Iraq. Further, I believe it is 
also the driving factor which is keeping the police from being more 
effective against sectarian militias and the insurgency as a whole. For 
some time I have been concerned with the development of the Iraqi 
police force. While there have been some successes such as increased 
visibility on the streets and some signs of increased respect among the 
people, my concerns lie with the loyalty and quality of the police. In 
your consultations with Iraqi officials, what steps did you find they 
were taking to break a recruit's ties to a militia or tribal loyalties?
    Mr. Hamilton. It is our understanding that the Minister of the 
Interior is taking important steps to identify and begin removing 
members of the police force with criminal records.
    It is unclear what specific actions the Minister of the Interior is 
taking against police force members who have ties to militias, unless 
they also have criminal records.

                                al qaeda

    6. Senator Thune. Mr. Baker, the role of al Qaeda in Iraq is 
nefarious and single-minded. Their goal is to destabilize the 
rebuilding process and create a failed state which would serve as a 
breeding ground for recruitment of young men to their extremist 
ideology. No one in the international community, especially in the 
Middle East, benefits from Iraq as a failed state. While conducting 
your research what did you discover about how the Iraqi people view al 
Qaeda in Iraq?
    Mr. Baker. Al Qaeda is responsible for a small portion of the 
violence in Iraq, but that includes some of the more spectacular acts: 
suicide attacks, large truck bombs, and attacks on significant 
religious targets. Al Qaeda in Iraq is now largely Iraq-run and 
composed of Sunni Arabs. Al Qaeda is a fact of life. As one Iraqi told 
us, ``Al Qaeda is now a franchise in Iraq, like McDonalds.''

    7. Senator Thune. Mr. Baker, do they see them as an outside force 
impeding progress?
    Mr. Baker. The response of Iraqis to al Qaeda varies. Some, like 
the tribal leaders in al Anbar province, are actively working against 
al Qaeda efforts. On the other hand, some Sunni leaders view branches 
of al Qaeda as resistance rather than terrorism.

    8. Senator Thune. Mr. Baker, what has been the reaction of other 
states in the Middle East to al Qaeda in Iraq's effort to derail the 
rebuilding process by fomenting conflict between the Sunni and Shia 
populations?
    Mr. Baker. The countries neighboring Iraq are concerned about the 
type of sectarian violence that has erupted between Sunni and Shiites 
spreading to their populations. Many fear Shia insurrections--perhaps 
fomented by Iran--in Sunni-run states. Such a broader sectarian 
conflict could open a Pandora's box of problems--including the 
radicalization of populations, mass movement of populations, and regime 
changes--that might take decades to play out.

                    role of saudi arabia and jordan

    9. Senator Thune. Mr. Baker, what role are Saudi Arabia and Jordan 
playing to engage the Sunnis in Iraq to convince them to dialogue with 
the Shias in Iraq?
    Mr. Baker. Saudi Arabia and Jordan should be a participant in 
regional and international diplomatic efforts to help bring about peace 
and stability in Iraq. Both countries can assist the national 
reconciliation process in Iraq with a focus on getting the Sunnis to 
participate. The Saudis, especially, could use their Islamic 
credentials to help reconcile differences between Iraqi factions and 
build broader support in the Islamic world for national reconciliation.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                           stability in iraq

    10. Senator Akaka. Mr. Baker and Mr. Hamilton, the report states, 
``The situation in Baghdad and several provinces is dire. . . . U.S. 
military and civilian personnel, and our coalition partners, are making 
exceptional and dedicated efforts--and sacrifices--to help Iraq. Many 
Iraqis have also made extraordinary efforts and sacrifices for a better 
future. However, the ability of the United States to influence events 
within Iraq is diminishing.'' Should President Bush elect not to 
implement the recommendations of the report, is it your belief that the 
stability in Iraq would continue to deteriorate?
    Mr. Baker. The President has implemented some of the essential 
elements of the report, including the decision to make the training of 
Iraqi troops the essential or primary mission of U.S. troops. He has 
decided not to implement others, for the time being. As we frequently 
state, there is no silver bullet for Iraq. It is possible that even if 
the President implemented all of the Iraq Study Group's 
recommendations, the situation would continue to deteriorate. However, 
the Iraq Study Group believes that its recommendations, taken together, 
represent the best chance for success in Iraq.
    Mr. Hamilton. The President has decided to implement some elements 
of the Iraq Study Group's recommendations, and not others.
    As we said at the outset of the report, the situation in Iraq is 
grave and deteriorating. There is no path that can guarantee success, 
but the prospects can be improved.

    11. Senator Akaka. Mr. Baker and Mr. Hamilton, in the report, it 
states ``The ability of the United States to shape outcomes is 
diminishing. Time is running out.'' In your best estimate, when will 
time run out?
    Mr. Baker. That is a hypothetical question that I cannot answer 
with specificity. But at the present, it is critical that the United 
States concentrate its diplomatic, economic, and military powers on 
this important region of the world.
    Mr. Hamilton. We do not know when time will run out, but we do know 
that the situation is deteriorating.
    Therefore, we believe the need for action in Iraq is urgent.

    12. Senator Akaka. Mr. Baker and Mr. Hamilton, the report 
recommends that the ``United States, working with the Iraqi government, 
should launch the comprehensive new diplomatic offensive to deal with 
the problems of Iraq and the region. This new diplomatic offensive 
should be launched before December 31, 2006.''
    However, this offensive requires not only for the United States to 
work with the Iraqi government, but also neighboring countries, 
including Iran and Syria, that have a critical stake in the stability 
of Iraq, to assist the Iraqi government in promoting national 
reconciliation in Iraq.
    How important is the inclusion of countries such as Iran and Syria 
in this new offensive, given the Bush administration's strained 
relations with them?
    Mr. Baker. Both Iran and Syria can and do play major roles in 
developments in Iraq. The Iraqi borders with those two countries are 
porous. They allow destabilizing elements into Iraq such as arms and 
foreign fighters. It is possible that Iran may reject offers to take 
part in a new diplomatic offensive. However, the United States should 
offer Iran that opportunity. If Iran declines, the world will view its 
rejectionist attitude towards Iraq. Syria is more likely to take part 
in such discussions, though it will take tough diplomacy by the United 
States. With both Iran and Syria, the United States should use 
incentives and disincentives. Neither of those countries wants a 
chaotic Iraq, in our view.
    Mr. Hamilton. The inclusion of Iran and Syria is critical to the 
success of diplomatic efforts to support peace and stability in Iraq. 
Iran and Syria border Iraq. They have influence in Iraq. The can 
contribute in important ways to stability or instability in Iraq. Their 
exclusion from regional diplomacy will undermine the success of 
diplomatic efforts.

                              afghanistan

    13. Senator Akaka. Mr. Baker and Mr. Hamilton, while the group's 
main concern was addressing the situation in Iraq, as stated in its 
report, there are other areas of concern that must also not be 
overlooked, in particular the situation in Afghanistan and the renewed 
threat posed by the Taliban. If Iraq continues to require greater U.S. 
military involvement, do you believe that the situation in Afghanistan 
would deteriorate?
    Mr. Baker. We must not lose sight of the importance of the 
situation inside of Afghanistan and the renewed threat posed by the 
Taliban. As the United States develops approached towards Iraq and the 
Middle East, it must give priority to the situation in Afghanistan.
    Mr. Hamilton. It is critical for the United States to provide 
additional political, economic and military support for Afghanistan, 
including resources that might become available as combat forces are 
moved from Iraq.

    14. Senator Akaka. Mr. Baker and Mr. Hamilton, the report 
recommends that ``If the Iraqi government does not make substantial 
progress toward the achievement of milestones on national 
reconciliation, security, and governance, the United States should 
reduce its political, military, or economic support for the Iraqi 
government.'' Am I correct to assume that it is the group's 
understanding that without incentives for the Iraqi government to stand 
up and make substantial progress toward national reconciliation, 
security, and governance, that stability of Iraq is in jeopardy?
    Mr. Baker. Incentives are one tool that the United States should 
employ in order to encourage the Iraqi government to make the changes 
required to improve national reconciliation, security, and governance.
    Mr. Hamilton. The violence in Iraq will not end without national 
reconciliation. Unfavorable trends in Iraq are likely to continue 
unless the Iraqi government makes substantial progress toward the 
achievement of milestones on national reconciliation and governance. 
The United States must pressure the Iraqi government to act. Making 
assistance conditional on Iraqi performance is a way to apply that 
pressure.

    15. Senator Akaka. Mr. Baker and Mr. Hamilton, the report 
recommends that the Iraqi National Police and Border Police should be 
transferred to the Ministry of Defense, and the Iraqi Police Service 
should become a true police force. However, the group also states that 
U.S. authorities do not know with precision the composition and 
membership of the various police forces, nor the disposition of their 
funds and equipment. There are ample reports of Iraqi police officers 
participating in training in order to obtain a weapon, uniform, and 
ammunition for use in sectarian violence. What mechanisms should be in 
place to ensure that participants do not use their knowledge and 
position to further advance sectarian violence?
    Mr. Baker and Mr. Hamilton. The Ministry of the Interior needs to 
undertake substantial reforms to purge bad elements and highlight best 
practices.
    The Ministry of the Interior needs to gain control of policing 
funds. Doing so will improve accountability and organizational 
discipline.
    All officers need to be vetted, retrained, retrained, and closely 
supervised.
    The presence of U.S. and international expert advisers is crucial 
to the success of reform efforts.
    Those who are no longer part of the police force need to 
participate in a disarmament, demobilization, and reintegration 
program.

    16. Senator Akaka. Mr. Baker and Mr. Hamilton, it is my 
understanding that various countries, including Iran, are already 
discussing current relations with the Iraqi government. What role 
should the United States play as the discussions are ongoing?
    Mr. Baker and Mr. Hamilton. The United States should be a 
participant in regional and international diplomatic efforts to help 
bring about peace and stability in Iraq.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                               oil trust

    17. Senator Clinton. Mr. Baker and Mr. Hamilton, you recommend that 
Iraq's oil revenue should accrue to the Federal Government and be 
shared on the basis of population instead of on the basis of geographic 
regions. For several years, I have advocated an oil trust plan for 
Iraq, based on the Alaskan Permanent Fund, which would take the profits 
from Iraq's oil sector, invest it, and distribute the dividends to 
every Iraqi so that all of Iraq has an incentive to keep their oil 
flowing and at the same time, help the economy grow and keep regular 
Iraqis from joining the insurgency by putting more money in their 
pockets.
    Instead, oil distribution remains unsettled. Guaranteeing every 
Iraqi a share of the oil revenues at the individual level is one way to 
try to begin to move beyond the impasse--and to give Iraqis some reason 
to believe we aren't there for oil; we aren't there to support big oil; 
and to give the Iraqis also some reason to feel positive about their 
national government. How do you think such a plan would be received?
    Mr. Baker. There is some merit to the plan that you propose. 
However, it would be difficult to do because the Iraqi government does 
not have a banking system to distribute the revenues.
    Mr. Hamilton. The Iraq Study Group examined such plans with great 
interest.
    The Iraq Study Group agrees that such a plan has the potential to 
give all Iraqi citizens a stake in the nation's chief natural resource.
    However, there is no institution in Iraq at present that could 
properly implement such a distribution system for oil revenues. It 
would take substantial time to establish, and would have to be based on 
a well-developed state census and income tax system, which Iraq 
currently lacks.
    In addition, oil revenues have been incorporated into state budget 
projections for the next several years. If oil revenues are removed 
from the state budget and distributed to the general population, 
alternative sources of revenues would need to be identified.

    18. Senator Clinton. Mr. Baker and Mr. Hamilton, do you believe 
that such a plan would help national reconciliation?
    Mr. Baker. Yes, if the plan were accepted by all factions of the 
Iraqi government.
    Mr. Hamilton. Yes. Such a plan, if implemented efficiently and 
effectively, could help national reconciliation.
    Alternative sources of revenues for the Iraqi state budget would 
also need to be identified.

    [Whereupon, at 11:11 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
